          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Inspection Report
Management of Controlled
Substances at Lawrence Livermore
National Laboratory




INS-O-11-01                              February 2011
                                  Department of Energy
                                    Washington, DC 20585
                                        February 10, 2011
MEMORANDUM FOR THE MANAGER, LIVERMORE SITE OFFICE



FROM:                     Sandra D. Bruce
                          Assistant Inspector General
                            for Inspections
                          Office of Inspector General
SUBJECT:                  INFORMATION: Inspection Report on "Management of Controlled
                          Substances at Lawrence Livermore National Laboratory"
BACKGROUND
As part of its national defense mission, the Department of Energy's (Department) Lawrence
Livermore National Laboratory (Livermore) actively engages in scientific, engineering, and
environmental research activities. Livermore is managed and operated under contract by
Lawrence Livermore National Security, LLC, for the National Nuclear Security Administration
(NNSA). The Livermore Site Office (Site Office) is responsible for administering the contract.
As part of its biomedical and forensic science mission, Livermore maintains 42 controlled
substances, including drugs such as black tar heroin, cocaine, phencyclidine and steroids.
Livermore's Health Clinic also maintains and dispenses other therapeutic controlled substances.

Federal regulations (21 CFR §1300-1316) and Department policy (DOE Order 580.1) establish
requirements for management of controlled substances to prevent improper or illegal use. The
CFR categorizes controlled substances under five different schedules, depending on the potential
for abuse, the current accepted medical use, and safety concerns for use of the substances under
medical supervision (Appendix 1). To dispense or conduct research with controlled substances,
Livermore is required to register "business activities" with the U.S. Drug Enforcement
Administration (DEA). Livermore's three business activities registered to possess controlled
substances are: Researcher for bio-medical research; Health Clinic for medical treatment of
Livermore personnel; and, Analytical Lab for forensic science work. The Researcher and
Analytical Lab business activities are responsible for 33 controlled substances, while the Health
Clinic is responsible for 9 controlled substances, for a total of 42. Different accountability rules
apply to each different category of registrant. Because of potential safety and health risks, the
Office of Inspector General initiated this inspection to determine whether Livermore was
appropriately managing controlled substances to prevent misuse or misappropriation.

RESULTS OF INSPECTION

We found that, with the exception of the Health Clinic, Livermore was not appropriately
managing its controlled substances in accordance with Federal regulations and Department
policy intended to prevent misuse or misappropriation. Specifically, our testing revealed that:

    •   Livermore could not accurately account for quantities received, distributed, used or on
        hand for at least 6 of the 33 controlled substances in the possession of the Analytical
        Lab; and,
                                                 2


     •   Despite requirements to the contrary, Livermore failed to segregate accounting for
         substances listed on different schedules and under different business activities.

Livermore's inability to properly account for controlled substances in its possession occurred
because officials did not devote adequate attention to developing and maintaining program
accountability. We found, for example, that the Researcher and Analytical Lab business
activities lacked adequate internal policies or guidance for the proper management of controlled
substances. Also, Laboratory officials told us that when controlled substances were transferred
between custodians, there were no internal procedures or requirements to conduct an inventory
of these substances or to weigh them to ensure the integrity of the chain of custody. In addition,
except for the Health Clinic, the Site Office had not performed oversight activities for controlled
substances held or used by the Researcher or Analytical Lab business activities. As a result,
there were incomplete records of quantities received, distributed, used or on hand for several of
the controlled substances we reviewed.

The quantities of controlled substances discussed in this report are relatively small. Nonetheless,
Livermore, as a DEA registered user of controlled substances, is required to account for and
maintain its controlled substances in accordance with established requirements. We developed
no evidence that misuse or misappropriation had occurred; however, failing to accurately
account for quantities received, used, distributed and on hand could create an opportunity for
improper or illegal use.

Additionally, non-compliance with the requirements of 21 CFR §1300-1316 can result in
substantial penalties for registered users. Specifically, Title 21 of the U.S. Code, Section 842,
Prohibited Acts B, considers the negligent failure to make or keep any record, report,
notification, declaration, statement, invoice or information an unlawful act that can result in up to
a $10,000 penalty per violation.

We shared an initial draft of this report with the Site Office to obtain technical comments on the
findings identified. In response, the Site Office stated that controls were being implemented
immediately to mitigate the risks identified in this report. To help ensure that the safeguards
being developed are adequate, we have made several recommendations designed to improve the
accountability over controlled substances at Livermore.

MANAGEMENT REACTION

NNSA management concurred with the report recommendations and agreed that there is a need
for a rigorous system of controls for managing the inventory of controlled substances. We made
technical changes to the report in response to management's comments and have included those
comments in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
REPORT ON MANAGEMENT OF CONTROLLED SUBSTANCES AT
LAWRENCE LIVERMORE NATIONAL LABORATORY

TABLE OF
CONTENTS


Management of Controlled Substances

Details of Finding……………………………………………………………………………….... 1

Recommendations………………………………………………………………………………… 5

Management and Inspector Comments…………………………………………………………… 6


Appendices

1.   Controlled Substances Schedule Definitions………………………………………………. 7

2.   Objective, Scope and Methodology…………………………………………...…………… 9

3.   Management Comments…………………………………………………………………... 10
MANAGEMENT OF CONTROLLED SUBSTANCES AT LAWRENCE
LIVERMORE NATIONAL LABORATORY______   ___________

MANAGEMENT OF    We found that with the exception of the Health Clinic,
CONTROLLED       Lawrence Livermore National Laboratory (Livermore) was not
SUBSTANCES       appropriately managing its controlled substances in accordance
                 with Federal regulations and the Department of Energy's
                 (Department) policy intended to prevent misuse or
                 misappropriation. This occurred because the Researchers and
                 Analytical Lab business activities registered with the U.S. Drug
                 Enforcement Administration (DEA) lacked adequate internal
                 policies or guidance for the proper management of controlled
                 substances. Specifically, our testing revealed that there were no
                 internal procedures or requirements to conduct an inventory of
                 these substances, to include weighing them, when they were
                 transferred between custodians. Exacerbating the issues with
                 managing controlled substances, we noted that, except for the
                 Health Clinic, the Livermore Site Office (Site Office) had not
                 performed oversight activities for controlled substances held or
                 used by the Researcher or Analytical Lab business activities.

                 Requirements for the proper management of controlled substances
                 are found at 21 CFR §1300-1316. In addition, DOE Order 580.1,
                 Personal Property Management Program, requires that controlled
                 substances be managed and physically controlled, from receipt to
                 point of use, to prevent improper or illegal use. However, we
                 identified significant internal control weaknesses relating to the
                 accurate accounting and recordkeeping of controlled substances at
                 Livermore that, in our judgment, increase the risk of misuse or
                 misappropriation.

Accountability   Livermore could not accurately account for quantities received,
                 distributed, used or on hand for at least 6 of the 33 controlled
                 substances in the possession of the Analytical Lab. As a result, an
                 accurate assessment of the quantities of controlled substances that
                 should have been on hand could not be made.

                 Specifically, the Analytical Lab is required to accurately account
                 for its controlled substances by documenting the total number of
                 forms of the substance they received, such as grams of powder or
                 milliliters of liquid, and the quantity distributed in any manner, to
                 include the date and manner of distribution. However, of the
                 33 controlled substances inventory records that were the
                 responsibility of the Analytical Lab, at least 6 of the 33 records did
                 not accurately reflect quantities received or distributed as required
                 by 21 CFR §1304 and DOE Order 580.1. Specific examples
                 follow:




Page 1                                                             Details of Finding
______________________________________________________________________________


                                                  Cocaine Hydrochloride

                        Our review of Laboratory records disclosed that the initial
                        inventory for the Schedule II substance "cocaine hydrochloride"
                        did not show the actual quantity on hand. Inventories of controlled
                        substances typically show the "Beginning Balance" in measurable
                        quantities such as grams. However, the initial Property
                        Management Inventory of Narcotics and Dangerous Drugs for
                        "cocaine hydrochloride" dated April 1, 2006, did not specify the
                        quantity of this substance. Instead, the "Beginning Balance" was
                        identified as "1 bottle" with no reference to how many grams of
                        cocaine were inside the bottle.

                        Follow-on inventories of this same controlled substance raised
                        additional questions about the accuracy and reliability of the
                        accountability record. Specifically, in July 2006, the "Beginning
                        Balance" for this substance was stated for the first time as 1 gram,
                        and the July and November 2006 inventories showed 1 additional
                        gram under "Receivals" (received) during each of these two
                        inventory periods. However, subsequent inventory records
                        continued to show a "Balance On Hand" of 1 gram with no
                        indication of distribution or use of this substance. It appears that
                        the 1 gram "Receivals" noted in July and November 2006 may
                        have represented the results of inventories performed on these
                        dates, and were not related to the acquisition of additional
                        quantities of "cocaine." Nevertheless, the inventory record did not
                        present clear information on this issue. We noted that a subsequent
                        inventory in July 2009 continued to show 1 gram on hand.

                        Officials were unable to determine from the inventory document
                        what quantity should have been on hand. Since the actual quantity
                        of the controlled substance was not specifically noted upon receipt
                        and the inventory record created confusion with regard to the two
                        notations of quantities received, the accuracy and reliability of the
                        accountability record is further called into question.

                                     3,4-Methylenedioxyamphetamine (MDA)

                        Issues also existed with the inventory of "3,4-Methylenedioxy-
                        amphetamine (MDA)," a type of Schedule I amphetamine. The
                        amount on hand was documented during an annual inventory in
                        2004 as 96 milligrams. However, 4 inventories later in 2007, the
                        balance changed to 58 milligrams, and in the 2008 and 2009
                        inventories, the balance changed to 5.8 milligrams, with no
                        documented explanation for the difference of 90.2 milligrams
                        (96 milligrams minus 5.8 milligrams).



Page 2                                                                   Details of Finding
______________________________________________________________________________


                                           Opium and Black Tar Heroin

                        We found that two of five controlled substances weighed had
                        actual weights significantly different than the weights documented
                        in the inventory records. In an effort to confirm recorded balances,
                        we selected a judgmental sample of controlled substances to be
                        weighed in our presence. While the inventory records for the
                        Schedule II substance "opium" showed there were 0.991 grams on
                        hand, the actual weight was 5.17 grams, over 5 times the amount
                        expected. In addition, the inventory records for the Schedule I
                        substance "black tar heroin" indicated there were 0.0125 grams on
                        hand, but the actual weight was 0.2442 grams, almost 20 times the
                        amount expected. In both of these cases, Livermore was in
                        possession of additional quantities of high risk controlled
                        substances without any documentation showing that they existed.

                        We found that there was no record of used or distributed
                        substances to account for difference in quantities of the controlled
                        substances described above. Although we had no evidence that
                        misuse or misappropriation has occurred, not accurately
                        accounting for quantities received, used, distributed and on hand
                        could create an opportunity for improper or illegal use.

Recordkeeping           In addition to the basic inventory problems, we also found that
                        Livermore did not maintain appropriate records of account activity
                        for controlled substances in accordance with applicable
                        requirements. Specifically, 21 CFR §1304 requires that records for
                        Schedules I and II controlled substances be maintained separately
                        from all other records, and that records for Schedules III, IV and V
                        substances be maintained either separately from other records, or
                        in such form that the information required is readily retrievable
                        from the ordinary business records of the registrant. In addition, in
                        21 CFR §1300-1316, Schedules I and II substances are often
                        required to have a higher level of accountability than Schedules III,
                        IV and V. For example, Schedules I and II are often required to
                        have an inventory with an exact measurement of the substance,
                        whereas Schedules III, IV and V may have an estimated amount.

                                Distinguishing Controlled Substances by Schedule

                        Our review of Livermore's Analytical Lab revealed that inventory
                        records for Schedules I, II, III and IV substances were maintained
                        together, and there was no distinction within these for the various
                        schedules under which the substances fell. In fact, the schedule
                        under which the controlled substance should have been accounted
                        for was only identified on 3 of the 33 inventory documents. This



Page 3                                                                   Details of Finding
______________________________________________________________________________


                        condition calls into question Livermore's ability to accurately
                        account for its controlled substances since different schedules often
                        require different levels of accountability.

                                        Location of Controlled Substances

                        Contrary to Department policy, the Analytical Lab's records did
                        not show the correct location for the 33 controlled substances
                        under its control. Specifically, in all 33 controlled substances
                        inventory records that were the responsibility of the Analytical
                        Lab, the room or building indicating the location of these
                        substances was inaccurate. This further complicated Livermore's
                        ability to accurately record and account for its controlled
                        substances.

                                 Procurement Records for Controlled Substances

                        According to 21 CFR §1304, procurement records for controlled
                        substances should be maintained for 2 years. However, we were
                        only able to identify procurement records for 3 of the 33 controlled
                        substances maintained by the Analytical Lab. Since inventory
                        records did not properly account for all controlled substances in
                        terms of quantities received, used, distributed and on hand, we
                        could not determine which substances fell within this 2-year
                        requirement. For example, as previously stated, additional
                        quantities of "opium" were found but no record exists as to how or
                        when they were acquired. Under these circumstances, including
                        the lack of documentation of the beginning balances, any analyses
                        of the controlled substances that should have been on hand would
                        have been difficult to establish. Further, responsible personnel
                        were not in a position to determine if controlled substances were
                        purchased and then misused or misappropriated.

                        In explaining why no procurement records are currently retained,
                        the National Nuclear Security Administration (NNSA)
                        management in comments to a draft of this report stated that the
                        Analytical Lab had not procured any controlled substances in the
                        past 2 years. While we do not question management's assertion,
                        we could not definitively determine whether procurements had or
                        had not occurred for 30 of the substances because inventory
                        records did not properly account for all controlled substances in
                        terms of quantities received, used, distributed and on hand.
                        Therefore, we could not establish which substances fell within the
                        2-year requirement established by 21 CFR §1304.




Page 4                                                                   Details of Finding
                          Records Maintained by Separate Business Activity

                  At least one controlled substance at Livermore was procured under
                  one business activity but was being maintained by a different
                  business activity. Specifically, 21 CFR §1304 requires that
                  separate inventories be maintained for each independent business
                  activity registered with the DEA, a requirement which dictated that
                  inventories for Livermore's three registered business activities be
                  maintained separately. However, our review of the procurement
                  records available for the Analytical Lab (forensic science work)
                  revealed that one of its controlled substances was procured under
                  the Researcher's (bio-medical research) registration but was not
                  identified as such in the Analytical Lab's inventory records.

                  This may seem like a minor paperwork issue, but combining
                  controlled substance records and inventories procured under two
                  separate business activities is inconsistent with 21 CFR §1304
                  requirements. More importantly, such treatment complicates the
                  need to manage controlled substances in an accountable and
                  transparent way. In the instant case, Researchers have more
                  defined inventory requirements for Schedules I and II substances
                  than do Analytical Labs. As such, combining controlled substance
                  records and inventories procured under two separate business
                  activities could result in controlled substances being maintained
                  under incorrect accountability standards.

                  As previously noted, Laboratory officials told us they were unable
                  to locate procurement records for the other 30 substances
                  belonging to the Analytical Lab. As a result, we were unable to
                  determine how many other substances may also have been
                  procured under a separate business activity. This condition raises
                  further concern with regard to the potential misuse or
                  misappropriation.

RECOMMENDATIONS   We shared an initial draft of this report with the Site Office to
                  obtain technical comments on the findings identified. In response,
                  the Site Office stated that controls were being implemented
                  immediately to mitigate the risks identified in this report. To help
                  ensure that the safeguards being developed are adequate, we have
                  made several recommendations designed to improve the
                  accountability over controlled substances at Livermore.

                  In that respect, we recommend the Manager, Livermore Site
                  Office, ensure that Federal oversight of these substances is
                  appropriate and consistent with the requirements of Title 21, Code
                  of Federal Regulations, Drug Enforcement Administration,



Page 5                                                           Recommendations
                 Department of Justice, §1300-1316 and DOE Order 580.1,
                 Department of Energy Personal Property Management Program.
                 To that end, we recommend that the Manager, Livermore Site
                 Office, require Lawrence Livermore National Laboratory to:

                     1. Establish an accurate accounting process for controlled
                        substances from receipt to point of use, with particular
                        emphasis on maintaining accountability controls;

                     2. Conduct close-out inventories of controlled substances
                        when there is a transfer of custodians; and,

                     3. Establish appropriate internal policies and procedures for
                        the recordkeeping of controlled substances to include, at a
                        minimum:

                              a. Distinguish controlled substances by schedule;

                              b. Identify the location of controlled substances;

                              c. Assure procurement records for controlled
                                 substances are maintained, as required; and,

                              d. Maintain separate controlled substance
                                 inventories for each independent business activity
                                 registered with the DEA.

MANAGEMENT AND   NNSA management concurred with the report recommendations
INSPECTOR        and agreed that there is a need for a rigorous system of controls for
COMMENTS         managing the inventory of controlled substances. Management
                 identified planned corrective actions and provided a technical
                 comment on the report.

                 We consider management's comments and corrective actions
                 planned and/or taken responsive to our recommendations. We
                 made technical changes to the report, as appropriate.

                 Management's comments have been provided in their entirety in
                 Appendix 3.




Page 6                                    Management and Inspector Comments
Appendix 1

SCHEDULE      There are five schedules of controlled substances – Schedules
DEFINITIONS   I, II, III, IV and V. The definition of each schedule and
              the nature of the drug or other controlled substance is as follows:

              Schedule I

                  •   The drug or other substance has a high potential for abuse.

                  •   The drug or other substance has no currently accepted
                      medical use in treatment in the United States.

                  •   There is a lack of accepted safety for use of the drug or
                      other substance under medical supervision.

                  •   An example of a Schedule I drug or other controlled
                      substance is "heroin."

              Schedule II

                  •   The drug or other substance has a high potential for abuse.

                  •   The drug or other substance has a currently accepted
                      medical use in treatment in the United States or a currently
                      accepted medical use with severe restrictions.

                  •   Abuse of the drug or other substances may lead to severe
                      psychological or physical dependence.

                  •   An example of a Schedule II drug or other controlled
                      substance is "cocaine."

              Schedule III

                  •   The drug or other substance has a potential for abuse less
                      than the drugs or other substances in Schedules I and II.

                  •   The drug or other substance has a currently accepted
                      medical use in treatment in the United States.

                  •   Abuse of the drug or other substance may lead to moderate
                      or low physical dependence or high psychological
                      dependence.




Page 7                           Controlled Substances Schedule Definitions
Appendix 1 (continued)

                         •   An example of a Schedule III drug or other controlled
                             substance is an "anabolic steroid."

                    Schedule IV

                         •   The drug or other substance has a low potential for abuse
                             relative to the drugs or other substances in Schedule III.

                         •   The drug or other substance has a currently accepted
                             medical use in treatment in the United States.

                         •   Abuse of the drug or other substance may lead to limited
                             physical dependence or psychological dependence relative
                             to the drugs or other substances in Schedule III.

                         •   An example of a Schedule IV drug or other controlled
                             substance is "Ativan."

                    Schedule V

                         •   The drug or other substance has a low potential for abuse
                             relative to the drugs or other substances in Schedule IV.

                         •   The drug or other substance has a currently accepted
                             medical use in treatment in the United States.

                         •   Abuse of the drug or other substance may lead to limited
                             physical dependence or psychological dependence relative
                             to the drugs or other substances in Schedule IV.

                         •   An example of a Schedule V drug or other controlled
                             substance is "Lyrica."




Page 8                                  Controlled Substances Schedule Definitions
Appendix 2
OBJECTIVE     Because of potential safety and health risks associated with
              controlled substances, the Office of Inspector General initiated this
              inspection to determine whether Lawrence Livermore National
              Laboratory (Livermore) was appropriately managing controlled
              substances to prevent misuse or misappropriation.

SCOPE AND     We conducted our inspection from December 2009 through
METHODOLOGY   October 2010. We reviewed Livermore's internal inventory
              records for 42 controlled substances maintained by Livermore.
              Additionally, we reviewed the available procurement records for
              the controlled substances maintained by Livermore. We also
              reviewed the following laws, regulations and policies:

                  •   Title 21, U.S. Code, Food and Drugs, Chapter 13, Drug
                      Abuse Prevention and Control;

                  •   Title 21, Code of Federal Regulations, U.S. Department of
                      Justice, Drug Enforcement Administration, §1300-1316;"

                  •   DOE Order 580.1, Department of Energy Personal
                      Property Management Program;

                  •   Lawrence Livermore National Security policy,
                      Procurement Standard Practices, Section 8, Required
                      Sources of Supply, Subject 8.7, Controlled Substances;

                  •   Livermore policy Medical and Pharmaceutical Waste
                      Handling; and,

                  •   Livermore Health Services policies and procedures, to
                      include Clinical Pharmaceutical Management Plan,
                      Controlled Substances Management, Clinical Programs
                      Pharmaceutical Programs Formulary Operational Policy
                      and Procedures, and Health Services Dispensing Protocol.

              This inspection was conducted in accordance with the Council of
              the Inspectors General on Integrity and Efficiency Quality
              Standards for Inspections, issued by the President's Council on
              Integrity and Efficiency, January 2005.




Page 9                                     Objective, Scope and Methodology
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                        IG Report No. INS-O-11-01

                               CUSTOMER RESPONSE FORM
I   The Office of Inspector General has a continuing interest in improving the usefulness of its
    products. We wish to make our reports as responsive as possible to our customers' requirements,
    and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
    you may suggest improvements to enhance the effectiveness of future reports. Please include
    answers to the following questions if they are applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the inspection would have been helpful to the reader in understanding this
       report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we have
       any questions about your comments.


    Name                                          Date

    Telephone                                     Organization

    When you have completed this form, you may telefax it to the Office of Inspector General at
    (202) 586-0948, or you may mail it to:

                                   Office of Inspector General (IG-1)
                                         Department of Energy
                                        Washington, DC 20585

                                      ATTN: Customer Relations


    If you wish to discuss this report or your comments with a staff member of the Office of
    Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
 The Office of f Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                         through the Internet at the following address:

            U.S. Department of Energy Office of Inspector General Home Page
                                http://www.ig.energy.gov

Your comments would be appreciated and can be provided on the Customer Response Form.
